U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

November 9, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Martin Rogelio Longoria v. USA, No. 20-5715
Dear Mr. Harris:
The petition for a writ of certiorari in this case was filed on September 11, 2020.
Although the government waived its right to file a response, the Court has requested that
a response be filed. The government’s response was due on November 4, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension
of time to and including December 4, 2020, within which to file the government’s
response.
Because of an oversight, this extension request is being filed five days late. We have
informed petitioner’s counsel of the oversight, and he has consented to the late extension request.
He has also stated that he does not oppose this further extension.

Sincerely,

Jeffrey B. Wall
Acting Solicitor General
cc:

See Attached Service List

20-5715
LONGORIA, MARTIN ROGELIO
USA

SCOTT ANDREW MARTIN
FEDERAL PUBLIC DEFENDER
440 LOUISSIANA
STE. 1350
HOUSTON, TX 77002
713-718-4600
SCOTT_MARTIN@FD.ORG

